HHS/OIG-Audit--"Review of Personal Care Services in Westchester County Under the New York State Medicaid Program, (A-02-91-01055)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Personal Care Services in Westchester County Under the New York State Medicaid Program," (A-02-91-01055)
June 20, 1994
Complete
Text of Report is available in PDF format (4.59 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Personal care involves services provided in the home to a recipient who requires varying degrees of assistance with activities
of daily living such as hygiene, dressing, and feeding. New York spent Medicaid funds totaling $1.4 billion in 1990 on
personal care services. Our audit report points out significant weaknesses with respect to documentation and billing of
services rendered and the authorization of personal care services. For example, we found services billed by providers but
not rendered and physicians prescribing services without current knowledge of the recipient's medical condition. These
weaknesses raise serious questions as to the adequacy and appropriateness of care rendered to recipients. We also found
that the State had not effectively monitored the program in Westchester County. We made recommendations to improve internal
controls over the program and financial adjustments. Regional Health Care Financing Administration officials concurred
with our findings and recommendations.